HHS/OIG, Audit -"Review of the Commonwealth of Pennsylvanias Medicaid Disproportionate Share Hospital Payments for State Fiscal Year Ending June 30, 2001,"(A-03-01-00221)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Commonwealth of Pennsylvanias Medicaid Disproportionate
Share Hospital Payments for State Fiscal Year Ending June 30, 2001," (A-03-01-00221)
April 30, 2003
Complete
Text of Report is available in PDF format (650 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Pennsylvania generally followed the disproportionate share hospital (DSH) payment methodology
in the state plan.  Such payments totaled $671 million for state fiscal year 2000-2001.  Inpatient hospital DSH
payments totaled $311 million and included payments to acute care general hospitals and freestanding rehabilitation hospitals
and to Pennsylvanias Department of Corrections.  Mental health DSH payments totaled $361 million and represented
payments to state-owned institutes for mental diseases, private psychiatric hospitals, psychiatric medical rehabilitation
and drug and alcohol units of acute care hospitals, and inpatient acute psychiatric care residential treatment facilities.  The
approved state plan allowed for all the preceding DSH payments except for payments to Pennsylvanias correctional institutions
for services to inmates (about $3 million).  We recommended that the Centers for Medicare & Medicaid Services
(CMS) ensure the state comply with CMS policy regarding the costs of medical care provided to inmates of correctional
facilities.